               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




        Fiscal Year 2012 Postal Service
         Financial Statements Audit –
        St. Louis Accounting Services

                       Audit Report




                                          December 17, 2012

Report Number FT-AR-13-005
                                                                    December 17, 2012

                                                      Fiscal Year 2012 Postal Service
                                                         Financial Statements Audit –
                                                       St. Louis Accounting Services

                                                         Report Number FT-AR-13-005



BACKGROUND:
The U.S. Postal Service St. Louis            accounting transactions were fairly
Accounting Services is responsible for       stated, and general ledger account
accounting functions related to money        balances conformed to the general
orders, real property, international mail,   classification of accounts. Finally, the
transportation, and accounts payable.        Postal Service complied with laws and
                                             regulations having a direct and material
We conducted this audit in support of        effect on the financial statements.
the independent public accounting firm’s
overall opinions on the Postal Service’s     We did not propose any adjustments.
financial statements and internal            However, throughout the year, we
controls over financial reporting.           reviewed internal controls over financial
                                             reporting and identified control
Our objectives were to determine             deficiencies in three interim reports.
whether:
                                                New Jersey international records unit
   Financial accounting policies and            personnel did not always correct
    procedures provide for an adequate           records that failed validation checks
    internal control structure and comply        or properly document weekly audits
    with accounting principles.                  of verification notes (messages
                                                 between postal administrations
   Accounting transactions are fairly           regarding exchange of mail).
    stated.                                     Personnel did not always record
                                                 instances where domestic air carrier
   General ledger account balances              personnel failed to protect or
    conform to the general classification        safeguard the mail, accurately
    of accounts.                                 assess penalties, and provide
                                                 adequate oversight.
   The Postal Service complies with            Personnel did not always properly
    laws and regulations that have a             claim expenses on travel vouchers
    direct and material effect on the            or use their travel card appropriately.
    financial statements.
                                             WHAT THE OIG RECOMMENDED:
WHAT THE OIG FOUND:                          We communicated the noted issues to
Financial accounting policies and            management through interim reports.
procedures provided for an adequate          Accordingly, we did not propose
internal control structure and complied      recommendations in this report.
with accounting principles. In addition,     Link to review the entire report
December 17, 2012

MEMORANDUM FOR:            TIMOTHY F. O’REILLY
                           VICE PRESIDENT, CONTROLLER




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial and Systems Accountability

SUBJECT:                   Audit Report – Fiscal Year 2012 Postal Service Financial
                           Statements Audit – St. Louis Accounting Services
                           (Report Number FT-AR-13-005)

This report presents the results of our audit of the selected financial activities and
accounting records at the U.S. Postal Service Accounting Services in St. Louis, MO, for
the fiscal year ended September 30, 2012 (Project Number 12BM004FT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Denice Millett, director,
Finance, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Julie S. Moore
    Jean D. Parris
    Robin M. Stewart
    Corporate Audit and Response Management
Fiscal Year 2012 Postal Service Financial Statements Audit –                                                       FT-AR-13-005
 St. Louis Accounting Services



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Progress of Prior Year Recommendation ........................................................................ 3

Recommendation ............................................................................................................ 3

Appendix A: Additional Information ................................................................................. 4

   Background ................................................................................................................. 4

   Objectives, Scope, and Methodology .......................................................................... 4

   Prior Audit Coverage ................................................................................................... 6
Fiscal Year 2012 Postal Service Financial Statements Audit –                                            FT-AR-13-005
 St. Louis Accounting Services



Introduction

This report presents the results of our audit of the selected financial activities and
accounting records at the U.S. Postal Service Accounting Services in St. Louis, MO, for
the fiscal year (FY) ended September 30, 2012 (Project Number 12BM004FT000). We
conducted this audit in support of the independent public accounting firm’s (IPA) overall
opinions on the Postal Service’s financial statements and internal controls over financial
reporting. 1 This audit addresses financial risk. See Appendix A for additional information
about this audit.

The Postal Reorganization Act of 1970, as amended, requires annual audits of the
Postal Service’s financial statements. Also, the U.S. Congress passed Sarbanes-Oxley
(SOX) legislation in calendar year 2002 to strengthen public confidence in the accuracy
and reliability of financial reporting. Section 404 of SOX requires management to state
its responsibility for establishing and maintaining an adequate internal control structure
and make an assertion on the effectiveness of the internal control structure over
financial reporting. The Postal Accountability and Enhancement Act of 2006 requires the
Postal Service to comply with Section 404 of SOX. The Board of Governors (Board)
contracted with the IPA to express opinions on the Postal Service’s financial statements
and internal controls over financial reporting.

Conclusion

During our audit of St. Louis Accounting Services, we noted:

   Financial accounting policies and procedures of the Postal Service provided for an
    adequate internal control structure 2 and complied with accounting principles
    generally accepted in the U.S.

   Accounting transactions at the St. Louis Accounting Services impacting the general
    ledger account balances for assets, liabilities, equity, income, and expenses of the
    Postal Service were fairly stated in accordance with accounting principles generally
    accepted in the U.S.

   General ledger account balances conformed with the general classification of
    accounts of the Postal Service on a basis consistent with that of the previous year.




1
  The IPA maintains overall responsibility for testing and reviewing significant St. Louis Accounting Services accounts
and processes. The U.S. Postal Service Office of Inspector General (OIG) coordinated audit work with the IPA to
ensure adequate coverage.
2
  To ensure key controls are properly designed and operationally effective.

                                                           1
Fiscal Year 2012 Postal Service Financial Statements Audit –                                              FT-AR-13-005
  St. Louis Accounting Services


   The Postal Service complied with laws and regulations relating to the St. Louis
    Accounting Services having a direct and material effect on the financial statements
    as a whole.

We did not propose any adjustments. However, throughout the year, we reviewed
internal controls over financial reporting and identified control deficiencies. 3 Specifically,

   New Jersey international air mail records unit personnel did not always correct failed
    records 4 in accordance with Postal Service procedures. Further, the records unit
    supervisor did not properly document weekly verification note 5 audits, and
    Headquarters International Accounting did not properly document oversight of these
    audits. 6

   Domestic air mail irregularities 7 processing related to safeguarding mail was not
    effective. 8 Postal Service personnel did not always record domestic air mail
    irregularities for adjudication and assess applicable penalties when they occurred.
    Further, management did not accurately calculate domestic air mail irregularity
    penalty amounts. Finally, management did not monitor whether recording problems
    existed or whether claim deductions were calculated accurately for domestic air mail
    irregularities.

   Postal Service personnel did not always properly claim expenses on their travel
    reimbursements. Also, some individuals did not use their travel card appropriately. 9

In addition, the IPA identified other control deficiencies affecting St. Louis Accounting
Services that were not in the scope of our audit and are not reported here. 10 The IPA
informed management of these issues on October 31, 2012.




3
  A control deficiency exists when the design or operation of a control does not allow management or employees, in
the normal course of performing their assigned functions, to prevent, or detect and correct, misstatements on a timely
basis.
4
  Records that failed validation checks and must be corrected by the records unit so the St. Louis International
Accounting Branch can bill foreign postal administrations accurately.
5
  These notes are formal messages between postal administrations that relay information regarding the exchange of
mail, in particular irregularities in the preparation, dispatch, and receipt of mail.
6
  New Jersey Network Distribution Center – International Air Mail Records Unit (Report Number FT-AR-12-011, dated
August 10, 2012).
7
  Irregularities occur when air carrier personnel fail to protect or safeguard the mail from, for example, inclement
weather, loss, destruction, or other hazards while in the control or custody of air carriers. Postal Service personnel at
commercial air stops record irregularities when they occur, and transportation personnel adjudicate the irregularities
or approve them for further processing. If approved, a penalty is assessed, and the amount paid to the air carrier for
transporting mail is reduced.
8
  Domestic Air Mail Irregularities (Report Number FT-AR-12-015, dated September 28, 2012).
9
  Travel Expense Reimbursements and Travel Card Usage (Report Number FT-AR-12-014, dated September
27, 2012).
10
   For example, the IPA identified an ongoing issue pertaining to recording a depreciation expense for fully
depreciated assets such as buildings. The IPA performed analysis at year-end and determined the potential
overstatement of depreciation expense on additions is estimated at $28 million.

                                                            2
Fiscal Year 2012 Postal Service Financial Statements Audit –                                       FT-AR-13-005
  St. Louis Accounting Services




Progress of Prior Year Recommendation

We followed up on our recommendation from FY 2011 11 for developing and
implementing an automated control within the electronic Facilities Management System
(eFMS) to ensure lease appraisal and lease capitalization checklists are completed. In
March 2012, management implemented new automated controls within eFMS to ensure
all checklist items are completed and appropriate action is taken within the electronic
system. As a result, we will close this recommendation.

Recommendation

We communicated issues related to inbound international mail, domestic air mail, and
travel expenses to management through interim reports. Accordingly, we did not
propose any further recommendations in this report. Because we made no
recommendations, management chose not to respond formally to this report.




11
  Fiscal Year 2011 Postal Service Financial Statements Audit – St. Louis Information Technology and Accounting
Service Center (Report Number FT-AR-12-010, dated January 18, 2012).

                                                        3
Fiscal Year 2012 Postal Service Financial Statements Audit –                                             FT-AR-13-005
  St. Louis Accounting Services



                                  Appendix A: Additional Information

Background

The St. Louis Accounting Services is one of three Accounting Services. 12 Its employees
are responsible for accounting functions related to money orders, real property,
transportation, international mail, and accounts payable. 13 Employees at this facility are
also responsible for processing financial and accountability data from field units.

We will issue a separate financial statements audit report for headquarters, Eagan, and
San Mateo Accounting Services. Further, in addition to the overall opinions on the
Postal Service’s financial statements and internal controls over financial reporting, the
Board’s IPA issued a separate report on its consideration of the Postal Service’s internal
controls and its test of compliance with certain provisions of laws, regulations, contracts,
and other matters. The purpose of that report was to describe the scope of testing of
internal controls over financial reporting and compliance and the results of that testing,
not to provide an opinion on internal controls over financial reporting or on
compliance. 14 The OIG will also issue a separate report for the audit of the FY 2012
Information System Controls at the Eagan, San Mateo, and St. Louis Information
Technology and Accounting Service Centers; and the Raleigh Information Technology
Service Center.

Objectives, Scope, and Methodology

The objectives of the audit were to determine whether: 15

    Financial accounting policies and procedures of the Postal Service provide for an
     adequate internal control structure 16 and comply with accounting principles generally
     accepted in the U.S.

    Accounting transactions at St. Louis Accounting Services impacting the general
     ledger account balances for assets, liabilities, equity, income, and expenses of the
     Postal Service are fairly stated in accordance with accounting principles generally
     accepted in the U.S.

    General ledger account balances conform to the general classification of accounts of
     the Postal Service on a basis consistent with that of the previous year.


12
   Other Accounting Services are located in Eagan, MN, and San Mateo, CA.
13
   Includes accounting for rents and leases, contract stations, uniform allowance, indemnity claims, tort claims, and
electronic Travel (eTravel).
14
   In addition to the IPA’s work, these reports encompass work the OIG performed at headquarters, and the three
Solutions Development and Support field sites, and the Raleigh, NC, Information Technology Service Center.
15
   The IPA maintains overall responsibility for testing and reviewing significant St. Louis Acounting Services accounts
and processes. The OIG coordinated audit work with the IPA to ensure adequate coverage.
16
   To ensure key controls are properly designed and operationally effective.

                                                           4
Fiscal Year 2012 Postal Service Financial Statements Audit –                                           FT-AR-13-005
  St. Louis Accounting Services


    The Postal Service complies with laws and regulations that have a direct and
     material effect on the financial statements taken as a whole.

As part of our audit, we assessed internal controls, tested transactions, and verified
account balances. Our audit included tests originated by the OIG and reperformance of
management testing. We conducted this audit from November 2011 through
December 2012 17 in accordance with the standards of the Public Company Accounting
Oversight Board (United States) (PCAOB) and the standards applicable to financial
audits contained in the Government Auditing Standards issued by the comptroller
general of the U.S. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to limit audit risk to a low level that is, in our
professional judgment, appropriate for supporting the overall audit opinion on financial
statements. Those standards also require considering the results of previous
engagements and following up on known significant findings and recommendations that
directly relate to the objectives of the audit. An audit also requires a sufficient
understanding of internal controls to plan the audit and determine the nature, timing,
and extent of audit procedures to be performed. We believe the evidence obtained
provides a reasonable basis for our conclusion based on our audit objectives.

We supported the IPA in obtaining reasonable assurance about whether the financial
statements were free of material misstatements (whether caused by error or fraud).
Absolute assurance is not attainable because of the nature of audit evidence and the
characteristics of fraud. Therefore, an audit conducted in accordance with the PCAOB
and Government Auditing Standards may not detect a material misstatement. However,
external auditors and the OIG are responsible for ensuring that appropriate Postal
Service officials are aware of any significant deficiencies that come to our attention. We
discussed our observations and conclusions with management throughout the year, and
included their comments where appropriate.

We relied on computer-generated data from a number of Postal Service financial
systems, including:

    Accounting Data Mart (ADM). 18
    eTravel. 19
    Surface Air Support System (SASS) Mobile. 20
    Foreign Post Settlement (FPS). 21

To assess the reliability of these systems’ data, we performed specific internal control
and transaction tests, including tracing selected financial information to supporting
source records, for testing originated by the OIG. For example, we traced general

17
   The scope of our audit was from October 1, 2011, through September 30, 2012.
18
   The repository for accounting and finance-related data for the Postal Service and part of the Enterprise Data
Warehouse.
19
   A web-based system to electronically create, submit, and review travel expense reports.
20
   An online application for recording and adjudicating air carrier irregularity events.
21
   The primary system that supports the processing of international accounts. The volume data used in FPS come
from the Global Business System, which is designed to assist in streamlining the processing of international mail.

                                                          5
Fiscal Year 2012 Postal Service Financial Statements Audit –                FT-AR-13-005
  St. Louis Accounting Services


ledger transactions from ADM to supporting documentation. We determined that the
data were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

                                                                 Final
                                                                Report     Monetary
            Report Title             Report Number                Date       Impact
  Domestic Air Mail                   FT-AR-12-015             9/28/2012       None
  Irregularities
  Report Results:
  Domestic air mail irregularities processing was not effective. Specifically,
  management did not monitor whether recording problems existed or whether claim
  deductions were calculated accurately. In addition, when irregularities occurred,
  Postal Service personnel did not always record them in SASS Mobile for
  adjudication and assess applicable penalties, as required. Finally, management did
  not accurately calculate domestic air mail irregularity penalty amounts.
  Management generally agreed with all four recommendations, none of which were
  considered significant.

  Travel Expense                      FT-AR-12-014      9/27/2012            None
  Reimbursements and Travel
  Card Usage
  Report Results:
  Postal Service employees improperly claimed expenses on their travel
  reimbursements and inappropriately used their travel card. We found six cases in
  which employees canceled a higher-priced airfare, traveled on a lower-priced one,
  but claimed the higher-priced fare on the travel reimbursement request. We also
  found 39 cases in which employees claimed a canceled fare but did not reimburse
  the Postal Service. In addition, eTravel allows employees to have their per diem
  reimbursements paid to the travel card rather than directly to their personal bank
  account, which can result in a credit balance and encourage employees to use it for
  personal purposes, which is prohibited. Management agreed, in principle, with all
  four recommendations. There were no significant recommendations.
  New Jersey Network                  FT-AR-12-011      8/10/2012            None
  Distribution Center –
  International Air Mail Records
  Unit
  Report Results:
  New Jersey records unit personnel did not always resolve failed records in




                                                     6
Fiscal Year 2012 Postal Service Financial Statements Audit –                                                      FT-AR-13-005
  St. Louis Accounting Services



                                                               Final
                                                              Report           Monetary
                Report Title             Report Number         Date             Impact
     accordance with Postal Service procedures. Specifically, records unit clerks did not
     always nil 22 duplicate dispatch records and did not always issue verification notes.
     Further, the New Jersey records unit supervisor did not properly document weekly
     verification note audits, and International Accounting did not properly document
     oversight of these audits. When personnel do not follow established procedures,
     revenue could be inaccurately recorded and foreign postal administrations could
     delay acceptance of the billing and, therefore, delay cash collection. Management
     took corrective action during the audit to address the issues identified in this report.
     Therefore, we made no recommendations.

     Fiscal Year 2011 Postal              FT-AR-12-010        1/18/2012         $861,075
     Service Financial Statements
     Audit – St. Louis Information
     Technology and Accounting
     Service Center
     Report Results:
     We did not propose any adjustments; however, throughout the year, we reviewed
     internal controls over financial reporting and identified control deficiencies 23
     regarding inbound international mail, money order adjustments, lease appraisals,
     and lease checklists. In addition, we found that Financial Control and Support
     (FCS) 24 personnel did not provide sufficient working paper evidence for the OIG to
     determine whether our results were consistent for establishing accountability for
     highway contract modifications and adjustments. Because these controls are
     considered key, 25 any error could impact the IPA’s opinion on internal controls over
     financial reporting. Management agreed in part with our only recommendation
     pertaining to lease appraisals and lease checklists, which was not a significant
     recommendation.

     New York International             FT-AR-12-006     12/19/2011           None
     Service Center – International
     Air Mail Records Unit
     Report Results:
     The New York records unit processed international mail transactions to ensure the
     St. Louis International Accounting Branch (accounting branch) billed foreign postal

22
   The Postal Service does not delete records but, instead, renders them non-existent and retains them for
informational purposes.
23
   A control deficiency exists when the design or operation of a control does not allow management or employees, in
the normal course of performing their assigned functions, to prevent or detect and correct, misstatements on a timely
basis.
24
   FCS management review specialist.
25
   A key control is a control that, if it fails, there is at least a reasonable likelihood that a material error in the financial
statements would not be prevented or detected on a timely basis.

                                                                7
Fiscal Year 2012 Postal Service Financial Statements Audit –                                             FT-AR-13-005
  St. Louis Accounting Services



                                                               Final
                                                              Report         Monetary
              Report Title            Report Number            Date            Impact
     administrations timely. However, management did not always completely review
     System for International Revenue and Volume Inbound (SIRVI) 26 test data. Also,
     personnel did not configure the Global Business System (GBS) to log a user off the
     network after a predetermined period of inactivity. In addition, the GBS did not
     reject manual entry of the same receptacle multiple times. Management agreed
     with both recommendations. One recommendation was significant; it was closed
     during FY 2012.

     J.T. Weeker (Chicago)                FT-AR-12-002       10/31/2011          None
     International Service Center –
     International Airmail Records
     Unit
     Report Results:
     The J.T. Weeker (Chicago) records unit generally processed international mail
     transactions timely and accurately to ensure that the St. Louis accounting branch
     correctly and timely billed the foreign postal administrations. However, Chicago
     records unit personnel’s advanced computing environment (ACE) (logon)
     identifications (IDs) and passwords were not always properly controlled. When
     logon IDs and passwords are not controlled, unauthorized persons may gain
     access to the financial transaction processing functions of application programs or
     resultant data records, enabling them to read, alter, add, or delete information in
     data files or to enter unauthorized financial transactions for processing. In addition,
     records unit personnel did not always perform a complete weekly audit of
     verification notes and submit verification notes in accordance with Postal Service
     procedures. Also, we found a records unit clerk did not modify a letter post dispatch
     record when the unit later received supporting documentation from the San
     Francisco International Service Center (ISC) to support a greater weight for the
     dispatch. When personnel do not follow established procedures, revenue could be
     inaccurately recorded, and foreign postal administrations could delay acceptance of
     the billing and, therefore, delay cash collection. Management agreed with all five
     recommendations; none were significant.

     Los Angeles International          FT-AR-12-001      10/26/2011           None
     Service Center – International
     Air Mail Records Unit
     Report Results:
     The Los Angeles records unit generally processed international mail transactions
     timely to ensure the St. Louis accounting branch timely billed foreign postal

26
   SIRVI is one of the data collection systems for international mail that captures pieces and weights from foreign
origin mail entering the U.S..

                                                           8
Fiscal Year 2012 Postal Service Financial Statements Audit –                     FT-AR-13-005
  St. Louis Accounting Services



                                                             Final
                                                            Report        Monetary
            Report Title             Report Number           Date          Impact
  administrations. However, the records unit did not maintain supporting
  documentation, such as manifests or verification notes, to help ensure the
  accounting branch accurately billed foreign postal administrations. Also, the records
  unit did not always perform a complete weekly audit of verification notes, and
  management did not always perform a complete review of SIRVI test data or review
  and approve SIRVI tests daily. Such reviews and approvals are necessary to
  ensure that country-specific volume estimates used to determine the terminal dues
  paid to the Postal Service for the delivery of foreign country incoming mail are
  correct. Management agreed with all five recommendations. One recommendation
  was significant and closed out with the issuance of this report.

  Fiscal Year 2010 Postal             FT-AR-11-009        3/31/2011       $ 73,443,545
  Service Financial Statements
  Audit – St. Louis Information
  Technology and Accounting
  Service Center
  Report Results:
  We did not propose any adjustments; however, throughout the year, we reviewed
  internal controls over financial reporting and identified control deficiencies regarding
  international mail, money orders, transportation, eTravel, leases, journal voucher
  entries, and account reconciliations. As a result of our audit, management took
  corrective action; therefore, we did not make any recommendations.




                                                     9
